 

IN THE

Supreme Court of the United States

THE STATES OF CALIFORNIA, COLORADO, CONNECTICUT,
DELAWARE, HAwaltl, ILLINOIS, IJowA, MASSACHUSETTS,
MICHIGAN, MINNESOTA, NEVADA, NEW JERSEY, NEW YORK,
NORTH CAROLINA, OREGON, RHODE ISLAND, VERMONT,
‘VIRGINIA, AND WASHINGTON, ANDY BESHEAR, THE
GOVERNOR OF KENTUCKY, AND THE DISTRICT OF COLUMBIA,

Petitioners,
v.

THE STATE OF TEXAS, ef al.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,016 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 3, 2020.

| LL

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
